BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Janssen
Pharmaceuticals, Inc., Johnson & Johnson, and
Janssen Research and Development, LLC v. A. Y., et al.,
was sent via Next Day Service to the U.S. Supreme
Court, and via e-mail service to the following parties
listed below, this 29th day of January, 2021:
Thomas R. Kline
Charles Lyman Becker
Christopher Anthony Gomez
Ruxandra Maniu Laidacker
Kline & Specter, P.C.
1525 Locust St., 19th Fl.
Philadelphia, PA 19102
(215) 772-1000
Tom.Kline@klinespecter.com
Charles.Becker@klinespecter.com
Christopher. Gomez@klinespecter.com
Andra.Laidacker@klinespecter.com
Cory Itkin
Jason A. Itkin
Arnold & Itkin LLP
6009 Memorial Dr.
Houston, TX 77056
(713) 222-3800
citkin@arnolditkin.com
jitkin@arnolditkin.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Stephen A. Sheller
Sheller, P.C.
1528 Walnut St., FL 4
Philadelphia, PA 19102
(215) 790-7300
sasheller@sheller.com

Counsel for Respondents A. Y., et al.
Jay P. Lefkowitz
Counsel of Record
Gilad Bendheim
Kirkland & Ellis LLP
601 Lexington Avenue
New York, NY 10022
(212) 446-4800
lefkowitz@kirkland.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 29, 2021.

Donna J. Wol
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]
JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

